   June 19, 2002




Acquisition

Army Claims Service
Military Interdepartmental
Purchase Requests
(D-2002-109)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Office of the Assistant
  Inspector General for Auditing of the Department of Defense, Home Page at
  www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at 703-604-8937
  (DSN664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
FEDSIM                Federal System Integration and Management Center
FMR                   Financial Management Regulation
GSA                   General Services Administration
MIPR                  Military Interdepartmental Purchase Request
O&M                   Operation and Maintenance
RDT&E                 Research, Development, Test, and Evaluation
UFR                   Unfunded Requirements
USARCS                U.S. Army Claims Service
U.S.C.                United States Code
         Office of the Inspector General of the Department of Defense
Report No. D-2002-109                                                June 19, 2002
 (Project No. D2001CH-0032)

              Army Claims Service Military Interdepartmental
                           Purchase Requests

                               Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
use military interdepartmental purchase requests to satisfy mission requirements should
read this report. This report addresses the need for organizations to develop and
implement adequate procedures when utilizing military interdepartmental purchase
requests.

Background. This report is the first in a series addressing the use and control of
military interdepartmental purchase requests. The Army Claims Service supports the
Army and the Judge Advocate General Corps by managing the Army claims system,
which includes processing tort and personnel claims, and recovering funds owed by
transportation carriers and medical care insurers. The Army Claims Service provided
the General Services Administration with about $11.6 million in operation and
maintenance funds from September 1997 through September 2000 on military
interdepartmental purchase requests. The $11.6 million was for technical and
management support services, and the acquisition of information technology.

Military interdepartmental purchase requests are used by DoD Components to order
goods or services from other DoD Components, as well as other Government activities
outside the DoD. Acceptance of the military interdepartmental purchase request will
result in an obligation of the funds if the purchase is on a reimbursable basis. The law
generally requires agencies purchasing property or services to have legitimate or “bona
fide” need for the items or services in the fiscal year of the appropriation before
recording the obligation of funds. The inability to demonstrate this need, as well as
using funds from the wrong appropriation year or for the wrong purpose, can result in a
violation of the Antideficiency Act.

Results. The Army Claims Service did not have adequate policies and procedures for
processing and funding military interdepartmental purchase requests. The Army
Claims Service did not appropriately plan or fund about $3.8 million of the $11.6
million it provided to the General Services Administration Information Technology
Fund for procurement of support services and information technology. The Army
Claims Service may have incurred potential Antideficiency Act violations on the
$3.8 million by transferring and obligating FY 1997 through FY 2000 operation and
maintenance funds to the General Services Administration without establishing a bona
fide need.

Of the $11.6 million provided to the General Services Administration Information
Technology Fund, the Army Claims Service had about $2.8 million remaining or
improperly “banked” in the Fund for future requirements. These funds are potential
monetary benefits that may be available for other uses. The banked funds consisted of
about $2.7 million obligated for undefined projects for which a bona fide need was not
shown. The remaining $0.1 million was for three projects involving hardware,
software, network integration, and acquisition support and one software development
project for which specific requirements were identified, but the funds were not
expended in the years of the applicable appropriations. The Army Claims Service also
incurred higher administrative costs by using the General Services Administration
rather than partnering with an Army contracting office. A lack of policy and procedures
for processing military interdepartmental purchase requests, inadequate acquisition
planning, and questionable year-end spending practices led to the inappropriate
handling of funds. (finding A).

The Army Claims Service also inappropriately used $3.3 million of the $11.6 million in
operation and maintenance funds for the development of personnel claims software and
the torts and affirmative claims software instead of research, development, test and
evaluation, and/or procurement funds. Use of the wrong type of funds occurred, in
part, because the guidance on funding information technology projects was
unnecessarily broad. In addition, USARCS was not aware of the guidance from the
Under Secretary of Defense (Comptroller) that clarified procedures for funding
information technology systems. (finding B). See the Finding sections of the report for
the detailed recommendations.

Management Comments and Audit Response. We did not receive comments on the
draft of this report from the Under Secretary of Defense (Comptroller). We request that
the Under Secretary of the Defense (Comptroller) provide comments on issuing
guidance on the use of the General Services Administration Information Technology
Fund. We received comments from the Deputy Assistant Secretary of the Army
(Financial Operations) who stated that because the Army Claims Service concluded that
Antideficiency Act violations had not occurred, he concluded an investigation of
potential Antideficiency Act violations is not warranted. We do not believe the Deputy
Assistant Secretary has met the intent of the Financial Management Regulation related
to potential Antideficiency Act violations when he did not initiate an independent
preliminary review or investigation of a potential violation. The Acting Assistant
Secretary of the Army (Policy and Procurement) concurred with the recommendation
on issuing guidance to Army organizations to partner with larger Army contracting
offices for support to reduce procurement administrative costs. The Army Claims
Service’s comments were partially responsive to the recommendation on implementing
procedures to require adequate acquisition planning, recouping $2.8 million in
unliquidated obligations for FY 1997 to 2000, and implementing annual reviews of any
unliquidated obligations in the General Services Administration Information Technology
Fund; and responsive to the remaining recommendations. We request that the Under
Secretary of Defense (Comptroller), the Deputy Assistant Secretary of the Army
(Financial Operations), and the Commander, Army Claims Service, provide comments
on the final report by August 19, 2002.




                                          ii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                  1
     Objectives                                                  3

Findings
     A. Procurement of Information Technology Support            4
     B. Funding of Investment Items                             16

Appendixes
     A. Audit Process
         Scope and Methodology                                  22
         Management Control Program Review                      22
         Prior Coverage                                         23
     B. Funding Criteria                                        24
     C. Guidance on Using the GSA Information Technology Fund   25
     D. MIPRs Issued for Project Element Plans                  26
     E. U.S. Army Claims Service Acquisitions Through GSA       27
     F. Report Distribution                                     31


Management Comments

     Department of the Army                                     33
Background
    The report is one in a series on military interdepartmental purchase requests
    (MIPRs) within DoD. This report discusses MIPRs issued by the U.S. Army
    Claims Service (USARCS) to the General Services Administration (GSA)
    Information Technology Fund.

    Military Interdepartmental Purchase Requests. The DoD uses MIPRs as the
    primary document to order goods or services from other DoD Components, as
    well as other Government agencies. The ordering organization should include
    on the MIPRs a description of the work or services being requested, unit price,
    total price, and a fund cite. The receiving organization can either accept the
    MIPR on a reimbursable or direct cite basis. When the receiving organization
    accepts the funds on a reimbursable basis, the ordering organization should
    record an obligation at the time of acceptance. If the receiving organization
    accepts the funds on a direct cite basis, the ordering organization should record
    an obligation when it is provided a contract or other obligating document citing
    its funds.

    Army Claims Service Mission. The USARCS was created as an independent
    agency in 1963, and relocated to Fort Meade, Maryland, in July 1971. The
    mission of USARCS is to support the Army and the Judge Advocate General
    Corps by managing the Army claims system, which includes processing tort and
    personnel claims, and recovering funds owed by transportation carriers and
    medical care insurers. The USARCS performs its mission in more than
    150 claims field offices and 60 Foreign Claims Commissions worldwide. The
    Tort Claims Division supervises the settlement of more than $30 million in tort
    claims each year. The Personnel Claims and Recovery Division oversees
    payment of more than $40 million in personnel claims and recovers more than
    $34 million each year for the Army.

    Interagency Agreement for Information Technology Services and Products.
    On September 29, 1997, USARCS entered into an interagency agreement with
    the GSA Federal System Integration and Management Center (FEDSIM) for
    technical, management, and acquisition support to acquire information
    technology. The interagency agreement identified 23 support areas, which
    included project management, acquisition, software, testing, configuration
    management, and system conversion. The interagency agreement also directed
    that the GSA support system design, install, integrate, and acquire products such
    as workstations, servers, software, computers, and other related information
    technology support services.

    Funding for Acquisitions. The USARCS provided GSA about $11.6 million in
    Army operation and maintenance (O&M) funds from September 1997 through
    September 2000 to procure information technology support services and
    products. Table 1 lists the MIPRs that USARCS sent to GSA to fund
    information technology procurements and the source and amount of funds on
    each MIPR.


                                        1
         Table 1. Army Claims Service Funding Transferred to GSA
            Pursuant to September 1997 Interagency Agreement
       MIPR                                   Date
      Number                         Issued          Accepted   Appropriation*        Amount
 MIPR7MFEDK4045 basic               9/29/97          9/29/97       2172020         $ 3,361,875
 MIPR7MFEDK4045 CH 1                9/30/97          9/30/97       2172020             202,125
 MIPR8MFEDK4068                     6/24/98          7/02/98       2182020             117,500
 MIPR8MFEDK4071 basic               9/25/98          9/28/98       2182020           1,139,000
 MIPR8MFEDK4071 CH 1                9/25/98          9/28/98       2182020             114,000
 MIPR8MFEDK4071 CH 2                9/28/98          9/29/98       2182020           1,411,000
 MIPR8MFEDK4071 CH 3                9/29/98          9/30/98       2182020               6,216
 MIPR9MFEDK4045 basic               9/17/99          9/23/99       2192020           1,108,000
 MIPR9MFEDK4045 CH 1                9/27/99          9/28/99       2192020             400,000
 MIPR9MFEDK4045 CH 2                9/28/99          9/29/99       2192020             100,000
 MIPR9MFEDK4045 CH 3                9/23/99          9/29/99       2192020              23,500
 MIPR0KGSACOMPU                     7/05/00          7/07/00       2102020               8,222
 MIPR0LFEDK4023 basic               8/28/00          8/30/00       2102020              35,000
 MIPR0LFEDK4023 CH 1                9/27/00          9/28/00       2102020             124,603
 MIPR0LFEDK4023 CH 2                9/28/00          9/28/00       2102020           2,641,900
 MIPR0LFEDK4023 CH 3                9/28/00          9/28/00       2102020             800,000
  Total                                                                            $11,592,941

 CH - Change

 *The first two digits (21) of the appropriation indicates an Army appropriation. The third
 digit identifies the appropriation year and the last four digits (2020) indicates Army operation
 and maintenance funds.



O&M funds are available for obligation only during the fiscal year for which
they were appropriated. As shown in Table 1, USARCS sent GSA only
$117,500 during the first three quarters of the fiscal year from 1997 through
2000. The USARCS provided the remaining $11.4 million to GSA during the
fourth quarter of those fiscal years. Of the $11.4 million, USARCS provided
about $8.5 million to GSA during the last 3 days of the fiscal year. USARCS
attributed the year-end spending to the Army budget process. USARCS
receives funds to carry out everyday operations from Resource Services,
Washington, designated Operating Agency 22, which is under the Office of
Administrative Assistant to the Secretary of the Army. Resource Services pools
excess funds from USARCS and other Army organizations at the end of each
fiscal year. USARCS receives funds from this pool to support its unfunded
requirements, which included the computer/software purchases through the GSA
Information Technology Fund.

Cost-to-Spend Ratio. In 1999, the Procurement Executives Association, an
informal association of procurement executives in Federal civilian agencies,
published a guide on performance management methodology for procurement
agencies. The guide identifies performance measures for assessing performance
of Federal contracting organizations against agency expectations. The guide
                                              2
     identifies the cost-to-spend ratio, which represents the cost for each office to
     spend one dollar of their customer’s funds, as a performance measure of the
     status of the acquisition system’s efficiency. For example, the cost-to-spend
     ratio for Army contracting offices in FY 1999 was about 1.2 percent.

Objectives
     The audit objective was to evaluate whether MIPRs policies and procedures
     were adequate and economical. We also reviewed the management control
     program as it related to the primary audit objective. See Appendix A for a
     discussion of the audit process and the review of the management control
     program.




                                          3
            A. Procurement of Information
               Technology Support
            USARCS did not appropriately plan or fund about $3.8 million of the
            $11.6 million of FYs 1997 through 2000 O&M funds provided to the
            GSA Information Technology Fund for procurements of technical and
            management support services and the acquisition of information
            technology. A lack of policy and procedures for processing MIPRs,
            inadequate acquisition planning, and year-end spending practices led to
            the inappropriate handling of funds. As a result, USARCS may have
            incurred potential Antideficiency Act violations by obligating
            $3.8 million in O&M funds before defining its requirements and
            establishing a bona fide need for tasks relating to the personnel claims
            software development project, the torts and affirmative claims software
            development project, and acquisitions of hardware and software. Of the
            $3.8 million obligated without a bona fide need, USARCS had about
            $2.8 million “banked” in the GSA Information Technology Fund to meet
            future requirements. Also, by using GSA to perform the procurement
            function rather than partnering with a larger Army contracting office
            with expertise in information technology contracting, USARCS incurred
            higher administrative costs.

Criteria for Interagency Acquisitions and Acquisitions
Through the GSA Information Technology Fund
     In the absence of other specific statutory authority, interagency acquisitions are
     governed by section 1535, title 31, United States Code (31 U.S.C. 1535), also
     known as the Economy Act. Section 1501 of title 31 of the United States Code
     provides criteria for recording obligations of Government funds. Section 1502
     of title 31 of the United States Code provides the statutory basis for the bona
     fide need rule. Each of the FYs 1997 through 2000 DoD Appropriations Acts
     stated that, absent specific authority, funds are generally not available for
     obligation beyond the current fiscal year. DoD Regulation 7000.14-R, “DoD
     Financial Management Regulation,” provides detailed guidance to implement
     those statutes. Section 757 of title 40 of the United States Code provides the
     statutory authority for the Information Technology Fund, which USARCS used
     to procure information technology. See Appendix B for additional details on
     these laws and regulations.

     The DoD General Counsel also provided guidance on using the GSA
     Information Technology Fund in a memorandum to the GSA General Counsel
     on December 16, 1997 (included in this report as Appendix C). The GSA
     General Counsel received several inquires from DoD purchasing offices that
     questioned whether the Economy Act applies to technology purchases through
     the GSA Information Technology Fund. In December 1997, the GSA General
     Counsel sent the DoD General Counsel a memorandum describing the legal
     authority for Government-wide use of GSA information technology programs on
     September 23, 1996. The memorandum stated that the Economy Act applies to
     interagency acquisitions only when more specific statutory authority is absent.
                                          4
    More than a year later, the DoD General Counsel sent GSA a memorandum that
    stated: “ . . . DoD activities may obtain information technology resources
    from GSA programs that are funded through the Information Technology Fund
    without relying on the Economy Act.” Accordingly, the guidance regarding
    interagency acquisitions was confusing.

Funding Procurements Through the GSA Information
Technology Fund
    The USARCS provided GSA about $11.6 million in Army O&M funds from
    September 1997 through September 2000 to procure information technology
    support services and products. The USARCS approved seven projects that were
    documented in project element plans. The project element plans covered the
    following seven areas: GSA administrative costs; hardware and software
    acquisitions; hardware, software, and network acquisitions; European software
    development; torts and affirmative claims software development, hardware and
    software acquisition support; and personnel claims software development. See
    Appendix D for the specific MIPRs that USARCS issued to GSA for the project
    element plans. Table 2 summarizes the total funding for each project element
    plan.
                 Table 2. Army Claims Service O&M Funds by Project
                            Element Plan as of April 2001
                                                            Amount
                                                    Amount Obligated
        Project Description1                        Funded or Expended2 Balance        Fiscal Year

    GSA administrative costs                  $    30,000 $ 30,344 ($     344) 1997/1998
    Hardware/software acquisition                 661,875   661,828        47    1998
    Hardware/software/network integration       2,785,125 2,719,818    65,307    1998
    European software development                 371,000   368,838     2,162    1997
    Torts and affirmative claims
     software development                       2,503,716 1,061,829 1,441,887    1998
    Hardware and software acquisition support   1,631,500 1,587,8443   43,656    1999
     Subtotal FY 1997 through 1999 Funds        7,983,216 6,430,501 1,552,715

    Hardware and software acquisition support   2,809,725          0 2,809,725            2000
    Personnel claims software development         800,000          0     800,00           2000
     Subtotal FY 2000 Funds                     3,609,725          0 3,609,725
     Total                                    $11,592,941 $6,430,501 $5,162,440

    1
      The project descriptions are the seven project element plans that USARCS approved as part of
    the interagency agreement with GSA.
    2
      Includes awarded delivery orders plus GSA fees and other administrative costs.
    3
       The hardware and software acquisition support project was a single project that included FYs
    1999 and 2000 O&M funds. GSA did not allocate the $1,587,844 in expenditures to either the
    FY 1999 or 2000 funds. We attributed the $1,587,844 to FY 1999 funds because GSA issued the
    delivery orders prior to receiving the FY 2000 funds.



                                             5
USARCS Contracting and Financial Management Practices
    Contracting Practices. The USARCS Information Management Office was
    responsible for procuring information technology assets for USARCS
    headquarters and field offices. USARCS did not use Army contracting officials
    for acquiring technical and management support services, and the acquisition of
    information technology. During September 1997 an interagency agreement
    between USARCS and GSA was signed, which delegated the contracting
    responsibilities to GSA. The interagency agreement requires GSA to perform
    such contracting functions as preparing statements of work, independent cost
    estimates, evaluating contractor quotes, and administering delivery orders. The
    USARCS budget officer processed the MIPRs that provided the funds for its
    purchases through GSA, and the executive officer approved the project element
    plans, which identified the work to be performed under the interagency
    agreement. GSA charged USARCS contract administration fees of 1.5 percent,
    other transaction fees of .5 percent, and labor charges of $102 per hour when
    contracting responsibilities were performed.

    USARCS Policies and Procedures. USARCS had no internal policies and
    procedures that addressed interagency agreements, or the issuance of MIPRs.
    USARCS officials stated that the budget officer and the executive officer were
    attorneys and they considered any legal issues when the interagency agreement,
    project element plans, and MIPRs were processed and approved.

    Acquisition Planning. Acquisition planning at USARCS was incomplete.
    USARCS did not identify specific goods or services or identify specific tasks on
    the MIPRs to GSA. The project element plans that GSA prepared and USARCS
    approved did not always identify milestones or timeframes for project
    completion. In addition, USARCS did not have cost estimates that supported
    Project Element Plan 7 at the time it issued the MIPRs to GSA. Defense
    Finance and Accounting Service (DFAS) Regulation 37-1, “Finance and
    Accounting Policy Implementation,” provides specific instructions for issuance
    and acceptance of MIPRs. The DFAS regulation requires agencies to enter a
    description for each type of work or service requested. The regulation also
    includes a completed MIPR sample. The interagency agreement between
    USARCS and GSA specified requirements for project element plans that
    included identifying key deliverables, delivery schedules, costs, specification of
    materials, and data. DoD Instruction 7041.3, “Economic Analysis for
    Decisionmaking,” November 7, 1995, and Army Regulation 11-18, “The Cost
    and Economic Analysis Program,” January 31, 1995, require Army
    organizations to prepare a comparative cost analysis to show that the lowest cost
    method of acquisition has been considered as the least expensive life-cycle cost
    to the Government. Appendix E provides details of four projects: the
    acquisition planning for the personnel claims software development; torts and
    affirmative claims software development; European software development; and
    hardware and software acquisition support.




                                        6
Fiscal Year-End Spending. Of the $11.6 million in O&M funds USARCS sent
GSA on reimbursable MIPRs, $8.5 million was provided at the fiscal year end
(within the last 3 days). Agencies cannot use O&M annual appropriations for
future needs after the funds expire. In addition to the restrictions included on
each Appropriation Act, the General Accounting Office Principles of
Appropriation Law, volume 1, chapter 5, states:
           If deliveries are scheduled only for a subsequent fiscal year, or if
           contract timing effectively precludes delivery until the following fiscal
           year, it will be presumed that the contract was made in the earlier
           fiscal year to obligate funds from an expiring appropriation, and that
           the goods or materials were not intended to meet a bona fide need of
           that year.

Although USARCS could technically obligate funds at the end of a fiscal year,
the obligation should be based on a valid need in the fiscal year of the
appropriation in order to comply with the bona fide need rule.

Retention of O&M Funds in the GSA Information Technology Fund. Of the
$11.6 million, USARCS had about $5.2 million remaining in the GSA
Information Technology Fund as of April 2001 (Table 2). USARCS officials
stated that they retained the funds in the GSA Information Technology Fund
because GSA could keep the funds for 5 years for a single project. GSA
documentation states that a customer with an interagency agreement may use the
Information Technology Fund to record an obligation without a contract or task
order in place if GSA has accepted the funds. However, 40 U.S.C. 757
contains no language that allows a customer with an interagency agreement to
“bank” expired funds for contracts in subsequent periods. In addition,
the FYs 1997 through 2000 DoD Appropriations Acts state:
           No part of any appropriation contained in this Act shall remain
           available for obligation beyond the current fiscal year, unless
           expressly so provided herein.

GSA documentation also states that a customer can legally obligate funds even if
the interagency agreement with GSA was signed on September 30, the last day
of the fiscal year. However, the customer must satisfy the bona fide need rule.
If the effort extends into the next fiscal year, it must satisfy the single
undertaking exception to the bona fide need rule. A single undertaking is an
effort that cannot reasonably be divided between fiscal years. If FEDSIM was
following a practice of retaining funds in the Information Technology Fund, it
was contrary to GSA policy. The GSA Inspector General addressed the practice
of retaining funds for 5 years in its Report No. A001031, “Review of Center for
Information Security Services,” February 22, 2001. The report states that the
Center for Information Security Services’ practice of retaining customer’s funds
for 5 years in the Information Technology Fund was contrary to GSA policy.
The report states that GSA policy on the retention of funds indicates “. . . that
appropriate disposition of customer’s funds occur at the point of completion and
not up to four years after work on the order has ceased.” The report also states
that if no further need for a customer’s funds exists, the balance must be
deobligated from the Information Technology Fund. The GSA Inspector
General recommended that the Center for Information Security Services
                                       7
     implement procedures that complied with GSA policy on unused funds. The
     procedures should state clearly when it is appropriate to apply the customer’s
     funds for additional work and when the funds should be deobligated. The
     Commissioner for the GSA Federal Technology Service concurred with the
     recommendation.

Potential Antideficiency Act Violations
     Potential Antideficiency Act violations occur when an organization uses funds
     from the wrong year, wrong appropriation, or has not established a bona fide
     need for the goods or services. Questionable year-end spending practices and
     lack of acquisition planning in funding for the acquisition of information
     technology products and services by USARCS resulted in its use of
     appropriations without a bona fide need and use of appropriations from the
     wrong fiscal year and the wrong appropriation. As a result, USARCS may have
     incurred Antideficiency Act violations on $3.8 million in O&M funds
     transferred to the GSA Information Technology Fund for the personnel claims
     software development ($0.8 million); torts and affirmative claims software
     development ($2.5 million); and hardware and software acquisition support
     ($0.5 million); without adequate acquisition planning. For further details, see
     Appendix E.

     Bona Fide Need. USARCS did not always establish that a bona fide need
     existed at the time it provided the funds to GSA. To the contrary, the lack of
     details or specific project requirements on the MIPRs and the project element
     plans indicated that the requirement existed in the future, not in the year the
     funds were appropriated. The bona fide need rule requires agencies requesting
     property or services to show a legitimate need in the fiscal year of the
     appropriation before recording the obligation of funds. According to
     31 U.S.C. 1501(a)(1), agencies must have documentary evidence of a binding
     agreement for specific goods or services to record valid obligations in financial
     records. Although we recognize that a MIPR may constitute an agreement for
     purposes of entering a valid obligation, we believe that the MIPRs in this case
     were so unspecific as to be ineffective in establishing an obligation for a bona
     fide need of the fiscal years in question. We believe the MIPRs were used
     instead as a mechanism to “park” the funds until requirements documents could
     be developed, well into the next fiscal year.

     In addition, the projects that USARCS funded through the GSA Information
     Technology Fund did not always satisfy the “single undertaking exception” to
     the bona fide need rule. USARCS included multiple undertakings or tasks
     under the individual projects, which did not require a continuous performance
     across fiscal years. USARCS funded the tasks as a single project, which
     resulted in its use of funds from the wrong fiscal year. For example, USARCS
     used FY 1998 O&M funds for the torts and affirmative claims software
     development project when

     FYs 1999 through 2002 funds would have been more appropriate. The project
     master plan for the project was not completed until June 1, 1999. USARCS
     planned to develop the torts and affirmative claims software development project
     in four distinct phases. The purpose of the four-phase implementation strategy
                                         8
    was to allow USARCS management flexibility in the commitment of fiscal
    resources and to prioritize its business requirements. Phases three and four
    could be performed concurrently or consecutively; however, neither could begin
    until phases one and two could be completed. Phases three and four also could
    be developed and deployed independently of each other. USARCS did not
    begin discussing phases three and four with the contractor until May 2001. The
    torts and affirmative claims software development project also included tasks
    that USARCS would not require until completion of the software development
    such as training and maintenance.

    Because USARCS did not define its requirements for the personnel claims
    software development project, torts and affirmative claims software
    development, and hardware and software acquisition support when the MIPRs
    were issued, it did not establish that a legitimate need existed in the year of the
    appropriation. The Army should investigate the potential Antideficiency Act
    violation that occurred when USARCS obligated the $3.8 million in O&M funds
    without establishing a bona fide need.

    Incorrect Appropriation. USARCS did not distinguish between the use of
    O&M; research, development, test, and evaluation (RDT&E); or procurement
    funds for $3.3 of the $11.6 million. As discussed in finding B, USARCS
    should have used $3.3 million of RDT&E funds and/or procurement funds
    instead of O&M funds for the personal claims software development project and
    the torts and affirmative claims software development.

Unliquidated Obligations in the GSA Information Technology
Fund
    The lack of details or specific requirements in the project element plans was a
    key reason why GSA had only expended about $6.4 million of the $11.6 million
    on contract delivery orders. Of the remaining $5.2 million, about $2.8 million
    of the unliquidated obligations were banked funds, or funds retained to meet
    future requirements. Approximately $2.7 million of the $2.8 million was for
    the personnel claims software development project, torts and affirmative claims
    software development project, and hardware and software acquisition support
    project. The remaining $0.1 million in unliquidated obligation from FYs 1997
    through 1999 was for three projects involving hardware, software, network
    integration, and acquisition support, and a software development project for
    which specific requirements were defined but the funds were not expended in
    the years of the applicable appropriations. We believe that USARCS was
    continuing to retain or bank $2.8 million with GSA to meet future undefined
    requirements. For example, the USARCS project for hardware, software, and
    network integration had an unliquidated obligation of $65,307. GSA awarded a
    delivery order of $3,076 for this project on August 2, 2000. Before August 2,
    2000, the last activity for this project was on September 7, 1999, which was a
    $12,655 decrease to delivery order DABT63-96-D-0014-03. Proper accounting
    of the funds would require USARCS to request the return of the $2.8 million in
    unliquidated obligations from GSA and deobligate those funds. USARCS
    should also initiate annual reviews of the unliquidated obligations in the GSA
    Information Technology Fund.
                                           9
Guidance on the GSA Information Technology Fund
           The Under Secretary of Defense (Comptroller) needs to issue supplemental
           fiscal guidance on the use of the GSA Information Technology Fund. The
           Deputy Assistant Secretary of the Army (Policy and Procurement), 1 stated that
           the funding practices discussed in our report were not unique to USARCS and
           asked that we obtain guidance on the legality of the funding practices, which he
           could use to initiate action to limit such practices. In addition to his request,
           similar problems with funding for procurements of support services and
           information technology through the GSA Information Technology Fund were
           identified in GSA Inspector General Report No. A001031, “Review of Center
           for Information Security Services, Federal Technology Services,” March 23,
           2001, and Inspector General of the Department of Defense Report No. D-2001-
           034, “Army Healthcare Enterprise Management System,” January 16, 2001.
           The guidance from the Under Secretary of Defense (Comptroller) should
           address the use of the GSA Information Technology Fund by DoD agencies to
           extend the useful life of their appropriations beyond the fiscal year limitations.
           The guidance should also explain that DoD agencies must comply with the bona
           fide need rules when using the GSA Information Technology Fund. Finally, the
           guidance should state that if a DoD organization uses the GSA Information
           Technology Fund and does not comply with the bona fide need rule and/or
           improperly extends the life of an appropriation, then an Antideficiency Act
           violation may have occurred.

Administrative Costs
           USARCS incurred higher administrative costs by using GSA than it would have
           partnering with a larger Army contracting office. In performing its contracting
           responsibilities, GSA charged USARCS contract administration fees of
           1.5 percent, other transaction fees of .5 percent, and labor charges of $102 per
           hour. The GSA fees included its cost of using Army contracts to acquire
           technical and management support services, and the acquisition of information
           technology for USARCS. GSA charged USARCS a fee of $6,356, or 1 percent
           for issuing two delivery orders for $635,671 against Army Communications-
           Electronics Command contracts DAAB07-97-D-V002 and DAAB07-97-D-
           V003. GSA also used the Army Intelligence Center and Fort Huachuca
           Directorate of Contracting to award delivery orders on behalf of USARCS. The
           fees that GSA paid the Fort Huachuca Directorate of Contracting were
           sometimes excessive, given the amounts of the delivery orders. For example, a
           $1,000 fee (37 percent) was charged for a $2,732 purchase. See Table 3 for
           examples of Fort Huachuca delivery orders fees.




1
    Formerly Deputy Assistant Secretary of the Army (Procurement). Redesignated Deputy Assistant
    Secretary of the Army (Policy and Procurement).

                                                   10
                 Table 3. Delivery Orders Issued by Fort Huachuca
                            Directorate of Contracting
                                                                           Percent
      Contract Number      Order Number       Amount      Fee     Total     Fee

     DABT63-96-D-007    DABT63-96-D-0283      $33,473   $ 670    $34,143      2

      GS-35F-4120D      DABT63-00-F-1615-00   31,131     1,000    32,131      3

     Small purchase     DABT63-00-P-1154-00     2,732    1,000     3,732     37
      Total                                   $67,336   $2,670   $70,006


    Overall, USARCS incurred $203,125 in GSA service charges, administrative
    costs and labor costs from FYs 1997 through March 2001, which was
    3.2 percent of the $6.4 million obligated by GSA. The cost-to-spend ratio in
    FY 1999 for Army contracting offices was about 1.2 percent. The ratio for the
    Military Departments and the Defense Logistics Agency currently average
    below 2 percent. Because the 3.2 percent cost-to-spend ratio was higher than
    the Army ratio of 1.2 percent, using GSA may not have been the best use of
    Army resources. USARCS would have better control over administrative costs
    by partnering with a larger Army contracting office for the acquisition of
    technical and management support services, and information technology. The
    Army needs to issue guidance on Army activities partnering with larger Army
    contracting offices for contracting support to minimize procurement
    administrative costs.

Conclusion
    USARCS did not adequately plan the acquisition of technical and management
    support services, and information technology through the GSA Information
    Technology Fund. Contracting within the Army should have been the first
    option USARCS explored. The Army should investigate USARCS use of O&M
    funds to satisfy future requirements. USARCS should request the return of any
    unused funds that it did not support with requirements in the same appropriation
    year. In addition, USARCS should establish controls to require statements of
    work, project element plans, and cost estimates when the MIPRs are issued.




                                       11
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense (Comptroller)
    issue fiscal guidance on the use of the General Services Administration
    Information Technology Fund.

    Management Comments Required
    The Under Secretary of Defense (Comptroller) did not comment on a draft of
    this report. We request that the Under Secretary provide comments on the final
    report.

    A.2. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller):

                  a. Investigate the potential $800,000 Antideficiency Act
    violations on MIPR0lFEDK4023 change 3 for the personnel claims software
    development project.

                  b. Investigate the potential $2.5 million Antideficiency Act
    violations on MIPR8JFEDK4068 and MIPRFEDK4071 basic, and changes 2
    and 3 for the torts and affirmative claims software development project.

                  c. Investigate the potential $500,000 Antideficiency Act
    violations on MIPR0KGSACOPU, MIPR0LEDK4023 basic, and changes 1
    and 2 for the software development project funded through the hardware
    and software acquisition project.

                  d. Comply with the reporting requirement in DoD Regulation
    7000.14-R, “Financial Management Regulation,” volume 14,
    “Administrative Control of Funds and Antideficiency Act Violations,” if
    any violations occurred.

                   e. Provide a copy of the preliminary review report and the
    final formal investigation report to the Inspector General of the Department
    of Defense.

    Management Comments. The Deputy Assistant Secretary of the Army
    (Financial Operations) agreed that potential Antdeficienciency Act violations
    should be investigated, but asserted that the Army Claims Service addressed the
    potential violation in its response to the audit report. The Deputy Assistant
    Secretary of the Army (Financial Operations) concurs with the Army Claims
    Service conclusion that an Antideficiency Act violation had not occurred, and
    that an investigation is not warranted.

    Specifically, the Acting Commander, Army Claims Service, disagreed with
    Recommendations A.2.a., A.2.b., A.2.c., and A.2.d., stating that although the
    recitation of the bona fide need rule in the report is accurate, its application to
    this situation is not. The Commander stated that any large spending at the end

                                         12
of a FY may be evidence of fiscal mismanagement warranting examination.
However, the use of Unfunded Requirements (UFR) lists are routinely used in
the budget process. Every installation, department, branch, or section of any
component has a UFR list to implement the acquisition of a recognized
requirement that is used if funding becomes available. The Commander stated
that although the report points to the lack of finite documentation in the MIPR
or the project requirement as further indication that there was not a bona fide
need in the FY in which the obligation was made, the report fails to address the
simple truth that the stated purpose on the face of the project requirement was,
and is, the need of the Army Claims Service. Any assertion that there was not a
bona fide need for these programs is wrong because the need existed and still
exists for these programs.

The Commander acknowledged that although the Army could have more
thoroughly documented the basis and requirements for the projects and included
them with the MIPR, USARCS personnel followed guidance provided by GSA
personnel who run the GSA Information Technology Fund on how to do the
project requirements and the information necessary to comply with the Act’s
requirements.

Audit Response. The Deputy Assistant Secretary of the Army (Financial
Operations) comments are not responsive. The Deputy Assistant Secretary’s
assertion that because the Army Claims Service concluded that an
Antideficiency Act violation had not occurred, an investigation is not warranted,
runs counter to the requirements of the DoD Financial Management Regulation
(FMR). Specifically, DoD Regulation 7000.14-R, volume 14, chapter 3
requires that a preliminary review be made to determine whether a violation
exists. In this case, the Assistant Secretary of the Army did not conduct a
preliminary review of the Antideficiency Act violations and merely relied on the
Army Claims Service’s conclusions.

Also, the USARCS comments did not address the individual projects in
Recommendations A.2.a. through A.2.c. Each project should be investigated
for a potential Antideficiency Act violation based on the facts and circumstances
surrounding the funding for each project.

The USARCS assertion that there were no Antideficiency Act violations because
the applicable need was identified, discussed, and programmed, and that the
need still exists, is misleading. USARCS did not have a need in the fiscal year
of the funds. Specifically, USARCS used current year funds for out-year
projects or tasks. For example, USARCS used current year funds to fund
maintenance tasks and training costs that certainly would not be a requirement
until the software was developed and installed at some point in the future. Our
conclusion was based on a combination of factors such as the lack of specificity
in the MIPRs, lack of other documentation (such as cost estimates and
statements of work), and even the absence of contract awards.

Further, although these orders were not accomplished under the Economy Act
or the Project Orders Act, the FMR guidance with respect to such purchases is
analogous here. For example, the FMR requires both such transactions to
comply with the bona fide need rule. The fact that an item is or has been an

                                   13
unfunded requirement of the command is not necessarily dispositive. Guidance
in the FMR for each type of acquisition requires that the work “shall be
expected to begin within a reasonable time after its acceptance.” Although such
orders may create a valid obligation of funds, they must be specific, definite,
and certain as to the work encompassed by the order and the terms of the order
itself. The Comptroller General has specifically applied both the bona fide need
rule and the concept of severable services to acquisitions entered upon under
authority other than the Economy Act. When, as here, a MIPR lacks a
description of the product and sufficient, definite, and certain detail at the time
of issuance or acceptance to allow the performing agency to proceed in carrying
out the work ordered, we question whether there is a bona fide need or a valid
obligation of funds.

In addition, the “off-loading” of contracts poses increased risks to the requesting
agency of funding violations. Moreover, USARCS should have ensured that
GSA complied with the Memorandum of Understanding, which required the
identification of specific tasks, goods and services, milestones, and the
preparation of cost estimates in the project element plans. USARCS officials
signed and agreed to the project element plans knowing that the required
elements were missing. Furthermore, USARCS could have avoided the
problems identified in the report if USARCS had followed existing DoD and
Army regulations (the Financial Management Regulation, DFAS regulations,
and the Army Economic Manual). Nothing in the Memorandum of
Understanding or the information technology fund superceded DoD or Army
regulations.

We request that the Assistant Secretary reconsider his position and provide
additional comments in response to this final report.

A.3. We recommend that the Acting Deputy Assistant Secretary of the
Army (Policy and Procurement) issue guidance on Army organizations
partnering with larger Army contracting offices for contracting support to
minimize procurement administrative costs.

Management Comments. The Acting Deputy Assistant Secretary of the Army
(Policy and Procurement) concurred, stating that he will issue the guidance as
soon as possible.

A.4. We recommend that the Commander, Army Claims Service:

       a. Implement management control procedures that require the
planning of acquisitions and preclude issuance of military interdepartmental
purchase requests that are not supported by statements of work, cost
estimates, and other planning documents, and cite the appropriate type of
funds.

Management Comments. The Commander partially concurred, stating that
additional management control procedures will be implemented. The
Commander also stated that requests are required to include specific
documentation on projects or purchases to include statements of work, cost
estimates, delivery requirements, and any other required documentation.

                                    14
Audit Response. The Commander’s plan to implement additional management
control procedures satisfies the intent of our recommendation. However, we
request that the Commander, in response to this final report, specify what
management control procedures will be implemented, and when.

       b. Recoup the unliquidated obligation of $2.8 million in FYs 1997,
1998, 1999, and 2000 operation and maintenance funds from the General
Services Administration and deobligate the funds.

Management Comments. The Commander partially concurred with the
recommendation, stating that USARCS has begun the process to deobligate
funds for the following completed projects: PEP 2 Hardware/Software
Acquisition, PEP 3 Hardware/Software/Network Acquisition, and PEP 6
Hardware/Software Acquisition Support. However, the Commander stated that
other projects are properly open and funded. The Commander stated that
although the Army Claims Service has not placed any orders on PEP 7
Personnel Claims Software Conversion to the web-based program since this
audit, he anticipated that the Army Claims Service would begin placing orders
on that project at the conclusion of this report.

Audit Response: We do not agree that the projects for the personnel claims
software development project and the torts and affirmative claims software
development project were properly funded. The projects included unliquidated
obligations for future requirements. See Appendix E for a detailed discussion of
the personnel claims software development project and the torts and affirmative
claims software development project. Finding B also discusses the type of the
funds that should be used. We request that the Commander reconsider his
position and provide additional comments in response to this final report.

      c. Implement annual reviews of any unliquidated obligations in the
General Services Administration Information Technology Fund.

Management Comments. The Commander concurred with the
recommendation, stating that the annual review of all projects, including review
of funds, is included in the management control procedures to be implemented
under Recommendation A.4.a.




                                   15
           B. Funding of Investment Items
           USARCS obligated $3.3 million of O&M funds instead of RDT&E
           and/or procurement funds to develop and acquire software for processing
           personnel claims and torts and affirmative claims. Use of the wrong
           type of funds occurred, in part, because the guidance on funding
           information technology projects was unnecessarily broad. In addition,
           USARCS was not aware of the guidance from the Under Secretary of
           Defense (Comptroller) that clarified procedures for funding information
           technology systems. As a result, USARCS may have committed an
           Antideficiency Act violation by using the wrong appropriations.

Funding Guidance
    On October 26, 1999, the Under Secretary of Defense (Comptroller) issued
    policy that clarified procedures for funding information technology systems by
    requiring that development and modernization efforts be budgeted with RTD&E
    appropriations. The budget policy clarification provides that costs for the
    development of a new capability, including all organizations involved in
    bringing a program to the objective system defined in the requirement
    documents, would be financed with RDT&E appropriations. Costs for
    obtaining commercial off-the-shelf systems requiring no modification would be
    financed with procurement appropriations, or if budgeted costs are less than
    $100,000, with O&M appropriations. However, if software modifications were
    made to commercial off-the-shelf information systems, costs would be financed
    with RDT&E appropriations. The Under Secretary of Defense (Comptroller)
    stated that, as a result of this policy clarification, there would likely be a
    migration of funds from the O&M appropriations to the RDT&E and
    procurement appropriations.

    The policy clarification on funding information technology systems was
    incorporated into the June 2000 revision of the FMR. The FMR provides the
    following guidance on budgeting for information technology and automated
    information systems.

    RDT&E Appropriations. RDT&E funds should be used to develop major
    upgrades to increase the performance of existing systems, purchase test articles,
    and conduct developmental testing and/or initial operational test and evaluation
    prior to system acceptance.

    Procurement Appropriations. Acquiring and deploying a complete system
    with a cost of $100,000 or more is an investment and should be budgeted with
    procurement appropriations. For system modification efforts, only the cost of
    the upgrade (for example, new software, hardware, and labor) is counted toward




                                       16
    the $100,000 threshold. When applying the dollar threshold, the acquisition of
    the investment item may not be fragmented or the item acquired in a piecemeal
    fashion so as to circumvent the expense and investment policy.

    O&M Appropriations. Expenses incurred in continuing operations and current
    expenses are budgeted in the O&M appropriations. Modernization costs under
    $100,000 are considered expenses, as are one-time projects such as developing
    planning documents and studies. Items purchased from a commercial source
    that can be used without modification (for example, commercial off-the-shelf
    and nondevelopmental items) will be funded in either the procurement or O&M
    appropriation, as determined by the expense and investment criteria.

    Definition of Information Technology System. The FMR, volume 2B,
    chapter 18, “Information Technology and National Security Systems,” June
    2000, defines a system as a combination of computer hardware and computer
    software, data, and telecommunication that performs functions such as
    collecting, processing, transmitting, and displaying information.

Planning for Software Development Projects
    USARCS did not identify specific tasks to be accomplished or identify the
    appropriate funds before sending the MIPRs to GSA for the personnel software
    development project. For the torts and affirmative claims software
    development, specific tasks were identified but USARCS did not distinguish
    between the use of O&M, RDT&E, or procurement funds for the tasks.

    Personnel Claims Software Development. USARCS initiated the personnel
    claims software development project on September 28, 2000. USARCS
    provided GSA with $800,000 in FY 2000 O&M funds on MIPR
    MIPR0lFEDK4023, change 3. USARCS did not prepare a statement of work or
    identify specific tasks for the personnel claims software development project.
    Furthermore, as of April 2001, GSA had not awarded any delivery orders for
    the project. See finding A for issues related to the bona fide need for the
    $800,000 development project in FY 2000. After USARCS resolves the bona
    fide need issue, it should use RDT&E funds for the personnel claims software
    development project and procurement funds for actual purchase of the
    completed software and hardware if the cost exceeds the $100,000 investment
    threshold.

    Torts and Affirmative Claims Software Development. USARCS initiated the
    torts and affirmative claims software development project because the existing
    system was vulnerable to the effects of the change to the new millennium and
    did not provide adequate support for mission critical elements of the
    organization. The purpose of the project was to implement an integrated torts
    and affirmative claims system to provide USARCS users with instant access to
    mission-critical management information assets. The project element plan for
    the projects states, “The initial support under the project plan will provide
    funding for project development support of the torts and affirmative claims
    system. The support may include the acquisition of hardware and software for
    direct support of the claims mission, including operations of current and future
                                       17
software systems.” USARCS provided initial funding for the project on
MIPR8JFEDK4068 with $117,500 in O&M funds on June 24, 1998. The total
estimated cost in the project element plan was $500,000. On October 15, 1998,
USARCS approved a revision that added task 2 to the project element plan and
increased the estimated cost to $2.6 million. USARCS provided about
$2.4 million in O&M funds for task 2 on MIPR8MFEDK4071 (basic and
changes 2 and 3). Task 2 included multiple tasks:

       •   purchase, tailor, and/or develop software;

       •   purchase hardware and technology services necessary to complete the
           project;

       •   test hardware and software;
       •   train personnel;

       •   maintain software, hardware, and services; and

       •   purchase hardware, which will enhance fielding new software.

Of the $2.5 million ($117,500 plus $2.4 million) USARCS obligated for the
torts and affirmative claims software development, USARCS had unsupported,
unliquidated obligations of $1.4 million that we addressed previously in
finding A. Table 4 shows the nine delivery orders that GSA issued for the
remaining $1.1 million.




                                   18
              Table 4. Contracting Actions for the Torts and Affirmative
                            Claims Software Development
      Date      Delivery Order No.            Items Purchased                 Amount

    7/01/99     DABT63-96-D-0085-00    Program manager and computer
                                       specialist support services        $   148,433

    8/31/99     GS-00T-99-AJP-3249     Servers and seagate software             9,308

    10/18/99 T0099AJ3545               Two servers                             27,892

    12/28/99 DABT63-96-D-0085-01       Program manager and computer
                                       specialist support services             27,000

    3/21/00     DABT63-96-D-0085-02    Program manager and computer
                                       specialist support services            626,611

    4/20/00     DABT63-00-F-1221-00    Software products, maintenance
                                       agreement, and technical support        98,034

    5/26/00     T0000AJ3640            Scanner                                   456

    9/07/00     DABT63-96-D-0085-03    Program manager and computer
                                       specialist support services             54,406

    1/31/01 NBCHF010026-00             Software consultant                    23,520
      Subtotal                                                             1,015,660
    GSA Fees and other costs                                                  46,169
      Total                                                               $1,061,829



Funding for Software Development Projects
    USARCS partially funded the torts and affirmative claims software development
    project before the June 2000 revisions to the FMR. Inspector General of the
    Department of Defense Report No. D-2000-063, “Information Technology
    Funding in the Department of Defense,” December 17, 1999, stated that the
    guidance in the FMR on funding information technology systems was
    unnecessarily broad. The report further stated that O&M funds rather than
    RDT&E funds were frequently being used for information technology
    development. The memorandum from the Under Secretary of Defense
    (Comptroller) and the subsequent changes to the FMR corrected the
    inconsistencies in funding information technology systems. Accordingly, we are
    not making a recommendation to address this issue.

    However, USARCS provided the funding for the personnel claims software
    development project after the changes to the FMR. USARCS was not aware of
                                        19
    the guidance from the Under Secretary of Defense (Comptroller) on funding
    information technology systems. In addition, USARCS did not follow the FMR
    in providing funds for the personnel claims software development project. The
    FMR requires that O&M funds be used for such items as technical support
    costs, training, and maintenance. The FMR also requires the use of RDT&E
    funds to develop major upgrades to increase the performance of existing
    systems, purchase test articles, and conduct developmental testing and/or initial
    operational test and evaluation prior to system acceptance.

    The purchase of the completed software and hardware requires the use of
    procurement funds if the purchase exceeds the $100,000 investment threshold.
    To determine whether an investment item exceeds the $100,000 threshold, the
    FMR precludes the use of piecemeal procurements. The FMR requires that an
    organization consider total system cost, rather than the individual component
    costs of a system, when determining whether to use O&M or procurement
    funds. USARCS should determine whether O&M, RDT&E, or procurement
    funds were appropriate for the personnel claims software development project
    using the guidance in the FMR, and then make any necessary funding
    adjustments.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Commander, Army Claims Service:

           a. Use research, development, and test and evaluation funds for the
    personnel claims software development project and procurement funds for
    actual purchase of the completed software and hardware if the cost exceeds
    the $100,000 investment threshold.

    Management Comments. The Commander agreed with the recommendation
    that USARCS determine which area should be used under current guidance and
    request funding under that area. However, the Commander stated that
    USARCS is currently reevaluating its funding and making appropriate
    adjustments. The Commander stated that until the audit team brought the
    memorandum to their attention, USARCS was unaware of the guidance sent out
    by the Under Secretary of Defense (Comptroller), which states that RDT&E
    funds or procurement appropriations should be used under certain
    circumstances. The Commander stated if USARCS violated any policy, it
    would be a violation of the policy to convert O&M dollars into RDT&E or
    procurement dollars so that the different controls and processes established
    under the RDT&E or procurement areas would be applied to the acquisition.

    Audit Response. The Commander’s comments meet the intent of the
    recommendation. However, we do not agree with the Commander’s assertion
    that USARCS only violated the policy to convert O&M dollars into RDT&E or
    procurement. The policy from the Under Secretary of Defense (Comptroller)
    was formalized into the FMR on June 2000. The FMR did not provide for the
    conversion of the funds. As stated in Appendix E, the personnel claims
    software development project was initially funded almost 1 year after the policy

                                       20
guidance and almost 3 months after the FMR change. We believe that the
conversion of the funds should not apply to projects funded after the
incorporation of the Under Secretary of Defense (Comptroller) policy into the
FMR.

       b. Establish the controls over military interdepartmental purchase
requests to preclude the development and acquisition of investment items
with operation and maintenance funds and ensure that the acquisition of
investment items is not fragmented to circumvent the $100,000 threshold for
using procurement funds.

Management Comments. The Commander concurred with the
recommendation, stating that the Army Claims Service plans to implement
management controls as a result of finding A will include processes for the
development and issuance of MIPRs. The Commander also stated that
USARCS has always been aware that fragmenting purchases to circumvent any
threshold established by policy or regulation is inappropriate. Determinations
are made on any project as to whether acquisition is of a system or for
individual component items that are stand-alone. Thus, the purchase of stand-
alone computers for the field offices, although in the aggregate more than
$100,000, does not fall within the policy as the computers do not form a system,
as contemplated by the policy. The Commander stated that USARCS will
continue its vigilance to ensure fragmenting does not occur.

Audit Response. The Commander’s plan to implement additional management
control procedures satisfies the intent of our recommendation. In response to
the final report, we request that the Commander provide us a copy of the
controls that are implemented.




                                   21
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the use and control of MIPRs by USARCS. We
    reviewed $11.6 million in O&M funds sent to GSA from September 1997 through
    September 2000. We also reviewed the MIPRs to determine if the use of O&M funds
    was appropriate for the procurement of information technology assets by USARCS.
    The documentation that we reviewed included MIPRs, project element plans,
    statements of work, an interagency agreement, GSA financial records, and GSA and
    contractor correspondence. The documentation we reviewed covered the period from
    September 1997 through March 2001. We interviewed officials from DoD and GSA.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the
    DoD Systems Modernization and Financial Management high-risk areas.

    Use of Computer-Processed Data and Other Data. We obtained a computer-
    generated list from GSA of MIPRs processed through the GSA Information
    Technology Fund during FY 2000. From this list, we judgmentally selected specific
    MIPRs initiated by the Army Claims Service for review. We did not verify the
    accuracy of the entire GSA list, but the MIPR numbers and amounts of the MIPRs
    that we examined agreed with the GSA list. We also obtained computer-generated
    data from GSA on its administrative and labor costs incurred under its interagency
    agreement with USARCS. We did not verify this information against the GSA
    detailed records. We do not believe the lack of verification impacted the audit results.
    Further, in comparing the USARCS cost-to-spend ratio to the overall Army cost-to-
    spend ratio, we did not assess how the Army computed its cost-to-spend ratio.

    Use of Technical Assistance. We obtained legal assistance from the Office of
    General Counsel, DoD, concerning USARCS compliance with laws and regulations
    related to the potential Antideficiency Act violations.

    Audit Dates and Standards. We performed this audit from October 2000 through
    August 2001 in accordance with generally accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and organizations
    within DoD and the GSA. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are operating
    as intended and to evaluate the adequacy of the controls.



                                           22
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the process that USARCS used to plan and
    fund the interagency transactions with GSA. We examined management controls over
    compliance with laws and regulations for planning and funding the acquisition of
    information technology assets. We also reviewed the adequacy of the self-evaluation
    of management controls at USARCS.

    Adequacy of Management Controls. We identified material management control
    weaknesses for USARCS, as defined by DoD Instruction 5010.40. USARCS
    management controls for planning and funding interagency transactions with GSA
    were not adequate to ensure that a valid appropriation was used and other planning
    documents were prepared to support the type and amount of funding for the
    interagency transactions with GSA, and that the interagency acquisitions complied
    with statutory and regulatory requirements. Recommendations A.1., A.3., A.4.a.,
    A.4.c., B.1.a., and B.1.b., if implemented, will assist in correcting the cited
    weaknesses. A copy of this report will be provided to the senior official responsible
    for management controls in the Army.

    Adequacy of Management’s Self-Evaluation. USARCS officials did not identify
    funding or acquisition of technical and management support services, and information
    technology as assessable units and, therefore, did not identify or report the material
    management control weaknesses identified by the audit.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense and the
    GSA Inspector General issued reports that discussed DoD funding for procurements of
    support services and information technology through the GSA Information
    Technology Fund.

    General Services Administration
    GSA Inspector General, Report No. A001031, “Review of Center for Information
    Security Services, Federal Technology Service,” March 23, 2001

    Inspector General of the Department of Defense (IG DoD)
    IG DoD Audit Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    IG DoD Audit Report No. D-2001-034, “Army Healthcare Enterprise Management
    System,” January 16, 2001

    IG DoD Audit Report No. D-2000-063, “Information Technology Funding in the
    Department of Defense,” December 17, 1999




                                          23
Appendix B. Funding Criteria

United States Code
    Section 1501 of title 31, United States Code, establishes minimum requirements for
    recording obligations for contracts. Specifically, for an agency to record a valid
    obligation, there must be documented evidence of an executed written agreement
    between agencies before the obligation of the appropriation or funds expires. The
    funds must be used for specific goods or services to be leased or purchased.

    The statutory basis for the bona fide need rule is found in 31 U.S.C. 1502, which
    states, “The balance of an appropriation or fund limited for obligation to a definite
    period is available only for payment of expenses properly incurred during the period
    of availability or to complete contracts properly made within that period of
    availability.” The bona fide need rule provides that a fiscal year appropriation may be
    obligated only to meet a legitimate, or bona fide, need arising in the fiscal year for
    which the appropriation was made.

    The Information Technology Fund is established in 40 U.S.C. 757, and specifies the
    content, costs, and capital requirements for the Information Technology Fund. The
    purpose of the Information Technology Fund is to provide information technology
    hardware, software, or services using multiyear contracts. The statute also provides
    that the funds obligated against the Information Technology Fund are available
    without fiscal year limitations.

DoD Financial Management Regulation
    Volume 2A, chapter 1, states that O&M funds are used for expenses incurred to
    operate and maintain the organization. Investments are defined as costs resulting in
    the acquisition of, or an addition to, end items, and are budgeted with procurement or
    military construction funds. In general, an item with a unit cost exceeding $100,000
    is considered an investment. A contractor’s labor cost incurred for the production or
    the construction is included in determining the cost of an investment.

    Volume 14, chapters 2 through 10, address Antideficiency Act violations.
    Specifically, chapter 2 addresses the types of Antideficiency Act violations and
    provides examples of the various violations. Chapters 3 through 10 provide
    requirements for conducting investigations of potential Antideficiency Act violations
    and reporting the results of the investigations.




                                          24
Appendix C. Guidance on Using the GSA
            Information Technology Fund




                       25
Appendix D. MIPRs Issued for Project Element
            Plans
MIPR Number                                                Amount       Amount Obligated            Balance
                                                                         or Expended1
GSA Administrative Costs:
MIPR7MFEDK4045 Basic                                  $       10,000
                      2                                       20,000
MIPR8MFEDK4071 CH2
 Subtotal                                                     30,000        $     30,344        $     (344)
Hardware/Software Acquisition:
MIPR7MFEDK4045 Basic                                        661,875
 Subtotal                                                   661,875              661,828                47

Hardware/Software/Network Integration:
MIPR7MFEDK4045 Basic                                       2,521,125
MIPR8MFEDK4071 CH1/CH2                                       264,000
 Subtotal                                                  2,785,125            2,719,818            65,307
European Software Development:
MIPR7MFEDK4045 Basic/CH1                                    371,000
 Subtotal                                                   371,000              368,838              2,162
Torts and Affirmative Action Software Development:
MIPR8JFEDK4068                                               117,500
MIPR8MFEDK4071 Basic/CH2/CH3                               2,406,216
                              2                              (20,000)
Adjustment to Project Funding
 Subtotal                                                  2,503,716            1,061,829        1,441,887

Hardware and Software Acquistion Support:
MIPR9MFEDK4045 Basic/CH1/CH2/CH3                           1,631,500
MIPR0KGSACOPU                                                  8,222
MIPR0LFEDK4023 Basic/CH1/CH2                               2,801,503
 Subtotal                                                  4,441,225            1,587,844        2,853,381
Personnel Claims Software Development:
MIPR0LFEDK4023 CH3                                           800,000
 Subtotal                                                    800,000                   0            800,000

Totals                                                $11,592,941           $6,430,501          $5,162,440




1
  The amount obligated or expended consisted of the GSA delivery orders and administrative costs incurred for
the project element plans as of April 2001.
2
  On March 24, 1999, USARCS approved an increase of $20,000 to GSA administrative costs and a $20,000
decrease to the torts and affirmative action software development project. For this appendix we used
MIPR8MFEDK4071, change 2, to reflect the increase in the GSA administrative project element plan.




                                                      26
Appendix E. U.S. Army Claims Service
            Acquisitions Through GSA

Personnel Claims Software Development Project
    The USARCS obligated $800,000 in FY 2000 O&M funds for the personnel
    software development project. On September 28, 2000, USARCS provided the
    $800,000 to GSA on MIPR0lFEDK4023, change 3. A memorandum from the
    Information Management Officer to the USARCS Budget Branch dated
    March 5, 1997, listed the automation projects to support the obligation of the
    $800,000. USARCS stated that this memorandum demonstrated the need for
    the project. The list of automation projects showed a personnel claims software
    program in FY 1997 and adjudication module for the personnel claims software
    as FYs 1999 and 2000 requirements. We disagree with USARCS that the
    memorandum established a bona fide need in FY 2000 for the personnel claims
    software development project. When the MIPR was issued, USARCS had not
    adequately planned for the acquisition, or identified project details in a statement
    of work or project element plan. The project element plan GSA issued on
    September 28, 2000, states “. . . funds were for software development and
    related activities for the personnel claims program.” The phrase “software
    development” did not identify specific goods or services, or meet the description
    of work requirements in DFAS Regulation 37-1. Software development projects
    are complicated, involving designing, installing, and testing the software. We
    believe that USARCS should have funded the projects with RDT&E, not O&M
    funds.

    In addition, USARCS did not prepare a cost estimate for the personnel claims
    software development project prior to issuing the MIPR. USARCS officials
    stated that they based the $800,000 on the costs incurred for the torts and
    affirmative claims software development project. The “Army Economic
    Analysis Manual,” July 1995, states that the documentation for a cost estimate
    must provide an audit trail, which includes the computations and methodologies
    used to develop the estimate. On April 11, 2001, the USARCS Information
    Management Officer met with the programmers and obtained an estimate of
    $1.8 million. Six months after the funds would normally have expired, GSA
    still had not issued any contracts based on the MIPR. Because USARCS did not
    define its requirements for the personnel claims software development project
    prior to issuing the MIPR on September 28, 2000, no legitimate need in
    FY 2000 was established. Further, as discussed in finding B, USARCS should
    have used RDT&E funds and/or procurement funds instead of O&M funds.
    The Army should investigate the potential Antideficiency Act violation that
    occurred when USARCS obligated $800,000 of FY 2000 O&M funds without
    establishing a bona fide need for the personnel claim software development
    project in FY 2000. Additionally, USARCS should request the return of the
    $800,000 in unliquidated obligations from GSA and deobligate those funds.




                                        27
Torts and Affirmative Claims Software Development Project
    USARCS originally identified the need for the torts and affirmative claims
    software development project in 1997. In June 1997, USARCS requested a
    planning estimate for a requirement analysis from the Naval Computer and
    Telecommunications Station. In November 1997, the Naval Computer and
    Telecommunications Station completed a study that provided USARCS a
    recommended solution for the torts and affirmative claims systems. A rough
    estimate for the torts and affirmative claims software development was
    $1.4 million. At the end of FY 1997, USARCS contracted with Information
    Systems Support Inc. for a system analysis and definition of the torts and
    affirmative claims program with the goal of writing an automation plan to guide
    USARCS in the future. Once the system analysis and definition was completed,
    USARCS planned to contract for the development of the torts and affirmative
    claims software development for delivery in FY 1999.

    USARCS initially funded the torts and affirmative claims software development
    project with MIPR8JFEDK4068, for $117,500, dated June 24, 1998. In
    September 1998, USARCS sent GSA MIPR8MFEDK4071 basic, and changes 2
    and 3 for $2.4 million, in FY 1998 O&M funds, for task 2 of the torts and
    affirmative claims software development. Of the total $2.5 million, GSA used
    about $1.1 million to issue nine delivery orders for the project. GSA had not
    obligated the remaining $1.4 million as of April 2001.

    Although USARCS approved the initial project element plan on
    September 28, 1998, USARCS did not sufficiently define its requirements for
    the torts and affirmative claims software development project to justify the use
    of $2.5 million in FY 1998 O&M funds. The initial project element plan
    USARCS approved on September 24, 1998, included $500,000 for task 1, the
    development of project plans and work breakdown structure. Specifically, such
    tasks as project plan development, gathering user requirements, and developing
    software requirement definitions were to be accomplished from 1 to 10 months
    after project start date. On October 15, 1998 (FY 1999), USARCS approved
    change 1 to the project element plan, which added task 2 to the project at an
    estimated cost of $2.1 million. The task 2 project element plan identified
    software development, software and hardware acquisition, and software
    installation and support. The project element plan states performance dates for
    task 2 were “to be determined.” In addition, the “Project Master Plan for Torts
    and Affirmative Claims Information Management System,” was not completed
    until June 1, 1999. The project master plan was the analysis of the business
    functions and information systems requirements that USARCS needed for
    implementation of the torts and affirmative claims software development
    project.

    The $1.4 million in unliquidated obligations, as of April 2001, was attributed to
    the four-phase implementation strategy USARCS used to develop the torts and
    affirmation claims system. The project master plan proposed a four-phase
    implementation strategy that allowed flexibility in the commitment of fiscal
    resources and allowed USARCS management to prioritize its business
    requirements. Phase three developed a documentation management system with
    an estimated cost of about $1.1 million, and phase four developed the workflow
                                       28
    management system at a cost of $199,000. The project master plan states that
    each phase “. . . represents a project, each with its own complete life cycle,
    consisting of traditional project phases.” Phases three and four could be
    performed concurrently or consecutively; however, neither could begin until
    phase two, development of the claims system, was completed. USARCS began
    discussing phases three and four with the contractor in May 2001. Because the
    documentation management system, and the workflow management system,
    represented separate systems and could not be started until completion of phase
    two, they were not legitimate needs in FY 1998. Therefore, USARCS use of
    FY 1998 O&M funds was not appropriate.

    The Army should investigate and determine if a potential Antideficiency Act
    violation occurred when USARCS obligated the $2.5 million of FY 1998 O&M
    funds without establishing a bona fide need for the torts and affirmative claims
    software development project in FY 1998. Additionally, USARCS should
    request the return of the $1.4 million in unliquidated obligations from GSA and
    deobligate those funds.

European Software Development Project
    In August 1997, USARCS requested that the Naval Computer and
    Telecommunications Station prepare a planning estimate for the European
    software development project. The Naval Computer and Telecommunications
    Station estimated a total project cost of $200,000 and proposed a starting date of
    October 1, 1997, with an estimated completion date of March 31, 1998.
    USARCS obligated $371,000 in FY 1997 O&M funds on MIPR7MFEDK4045
    (basic and change 1) to fund the European software development project.
    USARCS sent GSA MIPR7MFEDK4045 on September 29, 1997, and change 1
    on September 30, 1997. USARCS did not approve revisions to the interagency
    agreement or the project element plan for the European software development
    project until May 1998. The project element plan was also the statement of
    work for the project. GSA issued delivery order DABT63-96-D-0015/0104 on
    August 14, 1998, for $355,295 to Information Systems Support Inc., 11 months
    after USARCS provided $371,000 to GSA.

Hardware and Software Acquisition Support Project
    European and Korean Software Development. USARCS obligated about
    $2.8 million in FY 2000 O&M funds on MIPR0KGSACOPU and
    MIPR0LFEDK4023 basic, and changes 1, and 2, for the hardware and software
    acquisition support project. USARCS officials stated that $500,000 of the
    $2.8 million was not for the acquisition of the hardware and software acquisition
    support project. USARCS officials stated that $60,000 should have been
    obligated for the European software development project and $440,000
    obligated for a new project that involved implementing the European software in
    Korea. USARCS had correspondence with Information Systems Support Inc.,
    to show that planning for the Korean software project was started in FY 2000.
    The correspondence on July 14, 2000, included a proposed cost estimate of
    $108,091. USARCS officials stated that programming and travel costs were

                                        29
added to the cost estimate to allow the contractor to fix problems that occur
from the use of the software. We do not agree that the correspondence
established a bona fide need in FY 2000. If a legitimate need existed in
FY 2000, then USARCS should have identified a separate requirement for the
$500,000. In addition, GSA should have issued a delivery order to satisfy the
USARCS requirement; however, as of April 2001, GSA had not funded the
requirements. The expenses USARCS included for fixing the software after its
development and installation are not a bona fide need in a year prior to the
development of the software and should be funded with current year O&M
funds. Because USARCS did not identify its requirements for the $500,000
when the MIPR was issued on September 28, 2000, it did not establish that a
legitimate need existed that justified the use of FY 2000 O&M funds. USARCS
should request the return of the $500,000 in unliquidated obligations from GSA
and deobligate those funds. The Army should investigate the potential
Antideficiency Act violation that occurred when USARCS obligated the
$500,000 of FY 2000 O&M funds without establishing a bona fide need for the
European and Korean software development in FY 2000.

Hardware and Software Acquisitions. The remaining $2.3 million for
hardware and software purchases consisted of $1.8 million for the USARCS
purchase of hardware and software and $0.5 million for a web page
development project. USARCS received requests from its field offices for
automation equipment in June through August 2000. However, USARCS did
not identify specific requirements related to the hardware and software
acquisition support project to GSA when issuing the MIPR. The interagency
agreement requires that GSA identify “key deliverables” and critical milestones
of significance to the client. DFAS Regulation 37-1 requires agencies to enter a
description for specific goods or services. USARCS did not identify specific
goods or services for delivery schedules and no statement of work was included
on MIPR0LFEDK4023, changes 1 and 2, or the project element plan.
USARCS only identified specific goods and services for $8,222 on
MIPR0KGSACOMPU, and $35,000 on the basic MIPR0LFEDK4023. For
example, MIPR0LFEDK4023 stated that USARCS provided $35,000 to
purchase facsimile machines and printers. We believe that USARCS should
have identified specific types and quantities of equipment either on the MIPR or
the project element plan.




                                   30
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Deputy Assistant Secretary of the Army (Policy and Procurement)
Auditor General, Department of the Army
Commander, Army Claims Service

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget
General Services Administration




                                           31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         32
Department of the Army Comments




                     33
34
35
36
37
38
39
40
41
42
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
Terry L. McKinney
Eric B. Edwards
Harvey I. Gates
George A. Ford
Damian J. Felton
Michael T. Hill
LaVina N. Mensah
Ann L. Thompson
